w




          U.S. DEPARTMENT OF THE INTERIOR
            OFFICE OF INSPECTOR GENERAL




               EVALUATION REPORT




          DEPARTMENT OF THE INTERIOR
    CONTRACTING FOR TEMPORARY AND CRITICAL
                STAFFING NEEDS




    REPORT NUMBER: C-EV-MOA-0094-2003   SEPTEMBER 2004
This Page Intentionally Left Blank
                                     CONTENTS

                                                                                           Page

Introduction ................................................................................ 1

Background................................................................................. 3

Results of Evaluation.................................................................. 5

        Not Ensuring Contracted Services Were Needed .............. 6
        Using Wrong Contract Sources ......................................... 7
        Not Ensuring Appropriate Pay Rates Were Established
          for Temporary Staff....................................................... 8
        Requesting Specific Individuals Without Sole-Source
          Justifications.................................................................. 9
        Management Information and Oversight ........................... 10

Objective, Scope, and Methodology........................................... 13

Appendices

        1. Department Response ................................................... 15
        2. Status of Recommendations.......................................... 21




                                                                                                  i
This Page Intentionally Left Blank




                                     ii
                             INTRODUCTION



In today’s environment a more flexible workforce is needed to accomplish the
Department of the Interior’s missions and tasks. Permanent federal
employees are not always the best option to meet temporary or short-term
mission needs. Contracting for temporary staff for short-term projects offers
more flexibility than hiring additional permanent workers. The Department
and its bureaus and offices (hereinafter referred to as agencies) have used this
method on an as needed basis. The objective of our effort was to evaluate the
Department’s management of its contracting for temporary and critical
staffing needs.

We concluded that neither the Department nor individual agencies had
developed an overall approach or guidelines for acquiring non-permanent
staff. The lack of management information and oversight leaves this area
open to questionable practices and abuse. The agencies are not ensuring that
they receive best value for contracted services.




                                                                             1
This Page Intentionally Left Blank




                                     2
                                    BACKGROUND



Federal agencies can obtain additional personnel to complete projects or perform
administrative and professional tasks through various contracting methods. These
methods include:

      ¾ Using a franchise fund agency authorized under the Government
        Management Reform Act (Public Law 103-356) to acquire common
        administrative services. The franchise fund agency generally provides
        contracting services to meet the needs of agencies requesting temporary
        staff.

      ¾ Using General Services Administration (GSA) contracts. Two common
        GSA contract types are the Management, Organizational and Business
        Improvement Services (MOBIS) and the Temporary Administrative and
        Professional Staffing (TAPS).

         • The MOBIS contract is task oriented and the period of employment
           for each contractor will match the duration of the task.

         • The TAPS contract is used to temporarily hire administrative and
           professional personnel. It is appropriate to use TAPS when agencies
           temporarily require additional assistance due to increased workload or
           when other staff members are unavailable, for example due to a
           personal emergency. The Code of Federal Regulations (5 CFR §
           300.504) limits these temporary workers to a maximum of 240
           workdays within a 24-month period.

      ¾ Using Federal procurement regulations to contract directly with
        individuals or companies, or temporary staffing agencies. Under this
        method, agencies must award the contracts on a competitive basis and
        administer the contracts. Under the other methods the contracts are
        awarded and administered by the contracting sources.

The method selected in each case should be based on the agency’s specific need.


                                                                                   3
This Page Intentionally Left Blank




                                     4
                            RESULTS OF EVALUATION



Neither the Department nor individual agencies have developed an overall
approach or guidelines for acquiring non-permanent administrative and
professional staff. Individual agency officials believed that they were acting in a
manner appropriate to accomplish the agency mission when making contracting
decisions, but we discovered the use of several questionable contracting practices.
The agencies were:

      ¾ Not ensuring that contracted services were needed.

      ¾ Using wrong contract sources.

      ¾ Not ensuring appropriate pay rates were established for temporary staff.

      ¾ Requesting specific individuals without sole-source justifications.

Agency contracting and human resource officials were not always involved or
informed about the temporary staffing decisions. None of the agencies we
reviewed had accurate information about the numbers or types of temporary staff
acquired.

The lack of management information and oversight leaves this area open to
questionable practices and abuse. Further, the agencies are not ensuring that best
value is received for contracting dollars.

The agencies need to develop guidance for contracting for non-permanent
professional and administrative staff. The guidance should include:

      ¾ Establishing oversight responsibilities.

      ¾ Ensuring program managers coordinate with contracting officials to
        select the proper contracting methods to obtain non-permanent staff.

      ¾ Ensuring program managers coordinate with human resource officials to
        adequately determine the need for additional resources.

                                                                                      5
                          NOT ENSURING CONTRACTED
                            SERVICES WERE NEEDED


Agency officials are not adequately determining that they need additional
personnel resources to accomplish the workload. For example:

      ¾ One agency arranged a contract to hire a retired employee to perform the
        same duties he had performed as an employee. The agency also hired an
        individual to fill the retiree’s vacancy. The agency now has two
        individuals performing the work previously performed by one employee.
        The agency did not perform a workload analysis to determine its resource
        needs before both hiring a contractor to perform the work and filling the
        vacancy.

Recommendation 1
Agencies should have a process to understand workload requirements before
decisions are made to acquire additional staff. This process should include
determining in each case whether the agency’s need would best be met through a
contract or permanent federal employee.

Department Response

The Department concurred with this recommendation. The Department plans to
develop and issue a workforce planning advisory that will identify Human
Resources Specialists’ role and responsibility for advising program managers when
they are making the decision to hire whether the appointment should be temporary,
term, or permanent.

OIG Conclusion

OIG considers this recommendation resolved but not implemented.




                                                                                 6
                             USING WRONG CONTRACT
                                   SOURCES


Agency officials are not always using the correct contract sources for acquiring
non-permanent staff. For example:

      ¾ An agency incorrectly used a GSA contract method intended to provide
        task-oriented work to acquire temporary help for an on-going service. By
        using the incorrect contracting method, the agency was able to avoid time
        limitations for temporary help.

      ¾ An agency incorrectly used temporary contracting sources to fill needs of
        longer durations. These temporary contracting sources have specified
        time limits established by the Code of Federal Regulations. The agency
        retained contracted temporary staff beyond the allowable limits.

Recommendation 2

Agencies should develop and follow guidance to ensure that the correct contract
method is used when acquiring non-permanent staff.

Department Response

The Department did not concur with this recommendation. The Department
advised that Government-wide guidance is available related to selection of the
proper contracting vehicle and that the Office of Human Resources and Office of
Acquisition and Property Management will (1) issue guidance reiterating
regulations related to the acquisition of temporary services and (2) require agencies
develop and issue procedures implementing those requirements.

OIG Conclusion

Based on the alternative action presented by the Department, OIG considers this
recommendation resolved but not implemented.




                                                                                    7
                          NOT ENSURING APPROPRIATE
                         PAY RATES WERE ESTABLISHED
                            FOR TEMPORARY STAFF


The agencies were proposing pay rates for non-permanent staff to contracting
sources rather than relying on the contracting sources for competitive rates. As a
result, the agencies were not ensuring that the lowest price or best value was
received. For example:

      ¾ A retiree was paid 53.7 percent more per hour as a contract employee
        than as a regular full-time employee. The retiree was contracted to
        perform work that, as a full-time employee, she had supervised rather
        than performed. The agency did not work with the contracting source to
        obtain a competitive pay rate, and the agency could not provide support
        for the increased pay rate.

Recommendation 3

Agencies should ensure that competitive rates are obtained through the contracting
source for non-permanent staff.

Department Response

The Department concurred with this recommendation. The Department stated that
the Office of Human Resources and the Office of Acquisition and Property
Management will issue guidance reiterating the need to obtain competitive rates,
and bureaus will be required to issue procedures implementing the regulations.

OIG Conclusion

OIG considers this recommendation resolved but not implemented.




                                                                                     8
                         REQUESTING SPECIFIC
                         INDIVIDUALS WITHOUT
                      SOLE-SOURCE JUSTIFICATIONS


Agencies are requesting specific individuals from a franchise fund agency to
perform contract services. The agencies are not justifying their needs for specific
individuals. For example:

      ¾ We reviewed 20 requests for temporary staff at two agencies. Of the 20
        requests, 13 specifically identified an individual to fill the position on the
        request form, and one agency verbally requested 5 additional individuals.
        Of the 18 individuals that were identified, 14 were retired employees.
        The agencies had not prepared justifications for each of the requests and
        when questioned could only fully justify 1 of the 18 as requiring that
        specific individual.

Recommendation 4

Agencies should only request specific individuals for a contract position when the
agency can substantiate that no one else can perform the work.

Department Response

The Department concurred with this recommendation and stated that the Office of
Human Resources and the Office of Acquisition and Property Management will
issue Department-wide policy, based on the FAR and other regulations,
implementing standards to substantiate the need for hiring specific individuals for
temporary services.

OIG Conclusion

OIG considers this recommendation resolved but not implemented.




                                                                                  9
                      MANAGEMENT INFORMATION
                          AND OVERSIGHT


Neither the Department nor the agencies we reviewed could provide
accurate information on the numbers of contracted staff that had been hired.
For example:

      ¾ One agency’s contracting office stated that the agency had
        submitted 15 requests over a two-year period through a franchise
        fund agency. We obtained staffing reports from the franchise fund
        agency that stated the agency submitted 279 requests over that
        two-year period.

Without accurate and complete information on the numbers of contracted
staff hired or the methodologies used, neither Department nor agency
management has assurance that sound decisions are made or best practices
are used to acquire temporary or non-federal staff.

Recommendation 5

The Department or the agencies should develop an oversight program(s),
which would include a management information system to accumulate and
report on the numbers and purposes of contract actions to acquire temporary
staff.

Department Response

The Department did not concur with this recommendation. The Department
stated that the recommendation is contrary to the Government-wide
requirements on the use of performance-based service contracts which
describe the expected results rather than identify the number of people
required to perform a task. The Department believes that the Federal
Procurement Data System—Next Generation reports coupled with the
certifications regarding employment of temporary services that will be
required as part of each bureau’s process for hiring temporary services



                                                                         10
                     MANAGEMENT INFORMATION
                         AND OVERSIGHT


(response to Recommendation 2) adequately meets the requirement at 5
CFR, Chapter 1, Subpart E, Section 300.507, that agencies “maintain records
and provide oversight to establish that their use of temporary help service
firms is consistent with these regulations.”

OIG Conclusion

OIG considers this recommendation unresolved. We continue to believe that
the Department must have a vehicle to identify contract actions for
temporary staff in order to provide the necessary oversight. We were unable
to obtain accurate data on temporary staff during this evaluation. However,
based on the Federal Procurement Data System—Next Generation described
in the response, we have modified the recommendation and request that you
respond to the revised recommendation as shown on page 8.




                                                                       11
This Page Intentionally Left Blank




                                     12
                           OBJECTIVE, SCOPE,
                          AND METHODOLOGY


Our objective was to evaluate the Department of the Interior’s
management of its contracting for temporary and critical staffing needs.

We conducted the evaluation at the Bureau of Land Management
Denver Service Center and Colorado State Office; the Bureau of
Reclamation Denver Office; the Fish and Wildlife Service; the
Geological Survey; and the National Park Service Washington
Contracting and Procurement office, Denver Service Center, and
Intermountain Regional office. Our evaluation focused on contracting
activities for temporary staff during fiscal years 2002 and 2003.

Our evaluation was conducted in accordance with the Quality Standards
for Inspections promulgated by the President’s Council on Integrity and
Efficiency. In order to accomplish our objective, we:

     ¾ Obtained an understanding of the agencies’ processes used to
       contract for temporary and critical staffing needs.

     ¾ Interviewed agency officials to determine what methods are
       used to hire for temporary and critical staffing needs, how many
       contract staff have been hired, and how the pay rates are
       determined.

     ¾   Reviewed and analyzed relevant documentation regarding
         contracting for temporary and critical staffing needs.

The agencies did not accumulate data on the total numbers of contract
staff.



                                                                    13
This Page Intentionally Left Blank




                                     14
Appendix 1




       15
16
17
18
19
20
                   STATUS OF RECOMMENDATIONS

Recommendation            Status                      Action Required

  1, 2, 3, and 4      Resolved; not   No further response to the Office of Inspector
                      implemented     General is required. The recommendations will
                                      be referred to the Department’s Focus Leader for
                                      Management Accountability and Audit Follow-up
                                      for tracking of implementation.

        5             Unresolved.     Respond to the revised recommendation and
                                      include a plan identifying actions to be taken,
                                      target dates for implementation, and titles of
                                      officials responsible for implementation.




                                                                                    21
This Page Intentionally Left Blank




                                     22
This Page Intentionally Left Blank




                                     23
This Page Intentionally Left Blank




                                     24
